                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Implementation Plan With
                     Cost Sharing Methodology
                     Needed for Region 8
                     Senior Environmental Employee
                     Work on Lead Risk Reduction

                     Report No. 13-P-0430               September 24, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Patrick Gilbride
                                                   Erin Barnes-Weaver
                                                   Luke Stolz




Abbreviations

ECEJ             Enforcement, Compliance and Environmental Justice
EPA              U.S. Environmental Protection Agency
FY               Fiscal Year
OIG              Office of Inspector General
OPRA             Office of Partnerships and Regulatory Assistance
RRP              Renovation, Repair and Painting
SEE              Senior Environmental Employment/Employees
TSCA             Toxic Substances Control Act




  Hotline 

  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency
                        Office of Inspector General                                                       13-P-0430
                                                                                                  September 24, 2013


                        At a Glance
Why We Did This Review              Implementation Plan With Cost Sharing Methodology
In November 2012, we
                                    Needed for Region 8 Senior Environmental Employee
received a hotline complaint on     Work on Lead Risk Reduction
funds utilization for work done
by Region 8 Senior                   What We Found
Environmental Employment
(SEE) program grantees to           The two Region 8 program offices that jointly implement the Lead Renovation,
address lead-based paint            Repair and Painting Program do not have methodology or agreement for sharing
programs. The U.S.                  SEE funding, which has led to confusion about respective roles and tasks.
Environmental Protection            Additionally, most of the funding has gone to the office that does not have a
Agency Region 8 office jointly      finalized work plan and, as a result, the other office cut its SEEs to part-time.
implements lead-based paint         Because of our inquiry, the region has redistributed funds. However, even though
programs in two program             the two offices have recently discussed the importance of joint strategic planning,
offices, each with SEE              they have yet to reach a long-term agreement on SEE activities and related
assistance. After preliminary       funding.
fact finding on the merits of the
complaint, we opened an             A prior situation in Region 8 between two offices jointly implementing a Clean Air
assignment to determine the         Act program provides a sound approach to improving management of Lead
extent to which the two offices     Renovation, Repair and Painting Program SEE activities.
have work plans on agreed-to
SEE activities and a                 Recommendations and Planned Corrective Actions
methodology for SEE funding.
                                    We recommend that the Region 8 regional administrator develop a strategy for
This report addresses the           implementing the Lead Renovation, Repair and Painting Program that defines
following EPA themes:               program goals, performance measures, organizational responsibilities, and a
                                    methodology for allocating SEE funding. We also recommend that the regional
  Taking action on toxics and      administrator develop an oversight process to evaluate the region’s success in
   chemical safety.                 implementing the strategy. Region 8 agreed with our recommendations and has
  Embracing EPA as a high          initiated efforts to address them.
   performing organization.




For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2013/
20130924-13-P-0430.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                              THE INSPECTOR GENERAL




                                      September 24, 2013

MEMORANDUM

SUBJECT:	 Implementation Plan With Cost Sharing Methodology Needed for Region 8
          Senior Environmental Employee Work on Lead Risk Reduction
          Report No. 13-P-0430

FROM:	        Arthur A. Elkins Jr.

TO:	          Shaun McGrath, Regional Administrator
              Region 8

This is our report on the subject examination conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
In accordance with established audit-resolution procedures, EPA managers will make final
determinations on matters in this report.

Reasons for Review

In November 2012, the EPA OIG received a hotline complaint on funds utilization for work done by
Senior Environmental Employment (SEE) program grantees to address lead-based paint programs
under the Toxic Substances Control Act (TSCA). EPA Region 8 jointly implements TSCA
lead-based paint programs in two offices with SEE assistance:

      Office of Partnerships and Regulatory Assistance (OPRA).
      Office of Enforcement, Compliance and Environmental Justice (ECEJ).

The complainant alleged that after Region 8 reorganized in 1995 and pulled enforcement and
compliance work out of program offices like OPRA to form ECEJ, funding conduits for small, direct
implementation programs (e.g., TSCA lead-based paint) remained in offices like OPRA. The
complainant asserts that OPRA’s lead workload has decreased over time while ECEJ’s increased due
to the TSCA Lead Renovation, Repair and Painting rule in 2008. After preliminary fact finding on
the merits of the complaint, we opened an assignment to determine the extent to which OPRA and
ECEJ have work plans on agreed-to SEE activities and a methodology for SEE funding. This
memorandum summarizes the results of our review.




13-P-0430                                                                                      1
Background

The SEE program provides an opportunity for retired and unemployed Americans age 55 and
over to share their expertise in tasks that support a wide variety of environmental programs.
EPA and other federal and state environmental offices fund cooperative agreements with national
aging organizations that have been authorized by the Secretary of Labor.

The EPA issued the Lead Renovation, Repair and Painting rule (known as the “Lead RRP”) in
April 2008. Under the rule, beginning April 22, 2010, firms performing renovation, repair and
painting projects that disturb lead-based paint in homes, child care facilities, and kindergartens
built before 1978 must be EPA- or state-certified and must use certified renovators who follow
specific work practices to prevent lead contamination. To become certified renovators,
individuals must take training from an EPA-accredited training provider. In order for a firm to be
certified, an application must be submitted to EPA.

The EPA Fiscal Year (FY) 2013 National Program Manager Guidance from the Office of
Enforcement and Compliance Assurance and the Office of Chemical Safety and Pollution
Prevention outline Lead RRP strategies for regional offices such as Region 8’s ECEJ and OPRA,
respectively. Each national guidance document cross-references the other office, and each directs
regional offices to coordinate with one another on Lead RRP activities. Funding for the RRP
program also comes from these two EPA headquarters offices. OCSPP provides Agency Direct
Implementation funds for efforts in all non-authorized states, tribes and territories (Region 8
currently has five RRP non-authorized states). OECA provides funding for the region’s
compliance monitoring activities (i.e., inspections and investigations). Both Region 8 ECEJ and
OPRA utilize SEEs in implementing lead-risk reduction programs. OPRA receives the majority
of the funding, allowing OPRA to fund full-time SEE grantees for a longer duration than ECEJ,
as shown below:

Table 1: Direct implementation funding for SEE grantees by Region 8 offices
          Account Balance*             Funding Duration for One Full-Time SEE Grantee**
 ECEJ          $208,555                       $208,555 / $15,000 = 13.90 quarters
 OPRA          $349,681                       $349,681 / $15,000 = 23.31 quarters
* Based on data as of October 1, 2012 (start of fiscal year 2013).
**Assumes annual cost of SEE grantee of $60,000, or $15,000 quarterly.
Source: OIG analysis of Region 8 SEE account balances for Lead RRP.


Scope and Methodology

We received the hotline complaint in November 2012 and performed our fieldwork in June and July
2013. We did not conduct this limited scope review in accordance with generally accepted
government auditing standards. Specifically, we did not review internal controls related to the grant
agreements the EPA has with authorized SEE career organizations. We also did not test controls
related to the timekeeping system used by SEEs to verify Lead RRP tasks they may have conducted
each day. To determine the extent to which OPRA and ECEJ have work plans on SEE activities and
related funding, we interviewed staff and managers in each office and reviewed written materials
each provided. We also interviewed the complainant, all SEEs conducting Lead RRP work in each
office, and SEE employment organizations. We also reviewed each office’s FY 2013 National


13-P-0430                                                                                        2
Program Manager Guidance documents on priorities for regional activities. We believe the work we
conducted provides a reasonable basis for our findings and conclusions in this report.

Results of Review

ECEJ and OPRA do not have an agreement on SEE activities or a methodology for sharing SEE
funding, which has led to confusion about respective roles and tasks. For example, OPRA SEEs
described work they do to review and process applications for RRP certification, but a ECEJ staff
person understood that the EPA shifted administrative activities on certifications from regional
program offices to headquarters (in its response to our draft report, the region concurred that
headquarters assumed processing certification forms in August 2012). Thus, the ECEJ staff person
understood OPRA to have little activity in this area, yet the funding has remained in OPRA. In
contrast, the ECEJ staff person believes ECEJ’s workload has increased—without attendant
funding—due to the Lead RRP rule in 2008. As a result of funding uncertainty, ECEJ cut its SEEs to
part-time in May 2013.

According to the complainant, ECEJ first raised concerns to OPRA in August 2011 about funds use.
ECEJ and OPRA have corresponded or met over 20 times since then to discuss their respective lead-
risk reduction activities, including SEE tasks. During those discussions, ECEJ suggested that the two
offices establish a process to annually discuss projected allocations for lead to allow for mutual
decision making to ensure adequate SEE funding for activities conducted. Partly due to our inquiry,
OPRA has, in recent months, redistributed funding to ECEJ ($52,500 in April, and $46,904 and
$4,276 in July). However, even though the two offices have recently discussed the importance of
joint strategic planning, they have yet to reach a long-term agreement on SEE activities and related
funding.

A similar scenario occurred between ECEJ and another Region 8 office—Ecosystems Protection
and Remediation—on shared workload related to the Clean Air Act Risk Management Program.
In that situation, all funds for the program came to the Region 8 Ecosystems Protection and
Remediation office from headquarters through the Office of Solid Waste and Emergency
Response. However, the Ecosystems Protection and Remediation office was not able to do the
Risk Management Program work because the region’s organization placed the bulk of
responsibilities in ECEJ. This issue led to an OIG report that found that the two offices jointly
responsible for program implementation did not effectively plan or coordinate their activities.1
The OIG recommended that the Region 8 regional administrator develop (1) a strategy for
implementing the Risk Management Program in Region 8 that defines program goals,
performance measures, and organizational responsibilities; and (2) an oversight process to
evaluate the region’s success in implementing the strategy. Region 8 agreed with the OIG’s
findings and completed the recommended actions by the time the OIG published its report. The
two offices developed an implementation strategy that redirected funding from the Office of
Solid Waste and Emergency Response (through the Ecosystems Protection and Remediation
office) to ECEJ and realigned resources. We believe a similar approach by ECEJ and OPRA
could improve the region’s management of the Lead RRP Program and lessen confusion among


1
 EPA Region 8 Needs to Better Manage the Risk Management Program for Airborne Chemical Releases,
Report No. 09-P-0130, issued March 30, 2009.


13-P-0430                                                                                          3
regional staff responsible for implementation. In its response to our draft report, the region
agreed that both offices should make sure there is clarity on roles and responsibilities.

Recommendations

We recommend that the regional administrator, EPA Region 8:

   1.	 Develop a strategy for implementing the Lead RRP Program in Region 8 that defines
       program goals, performance measures, organizational responsibilities, and a methodology
       for SEE funding.

   2.	 Develop an oversight process to evaluate the region’s success in implementing the strategy.

Agency Comments and OIG Evaluation

Region 8 agreed with our recommendations and has initiated efforts to address them.
Specifically, the region’s response indicated that staff and managers from OPRA and ECEJ are
working toward the development of a joint work plan by the beginning of FY 2014 that will lead
to more effective management of our resources. The region said, “Such a work plan will include
developing a methodology for allocating funding to activities and SEEs, planning/coordinating
activities, and clarifying roles and responsibilities. Once the Plan is final, ECEJ and OPRA will
monitor Lead Program implementation efforts semiannually through FY 2014.” We believe
Region 8’s planned actions meet the intent of our recommendations. After receiving Region 8’s
response, we conferred with the region to verify planned completion dates to address our
recommendations and denoted dates in the status table on the next page. We included the
region’s full response in appendix A.

Action Required

You are not required to provide a written response to this final report because you agreed to all
recommendations and provided corrective actions and planned completion dates that meet the
intent of our recommendations. The recommendations remain open with corrective actions
ongoing. Please update the EPA’s Management Audit Tracking System as you complete the
planned corrective actions for these recommendations and notify my staff if there is a significant
change in the agreed-to corrective actions. We will post this report on our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rich Eyermann,
acting assistant inspector general for the Office of Audit, at (202) 566-0565 or
Eyermann.Richard@epa.gov; or Patrick Gilbride, director for Risk and Program Performance
Audits, at (303) 312-6969 or Gilbride.Patrick@epa.gov.




13-P-0430                                                                                        4
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                        POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                            Planned
    Rec.    Page                                                                                           Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1      Action Official           Date      Amount      Amount

     1        4     Develop a strategy for implementing the Lead RRP        O    Regional Administrator,    11/01/13
                    Program in Region 8 that defines program goals,                    Region 8
                    performance measures, organizational
                    responsibilities, and a methodology for SEE
                    funding.

     2        4     Develop an oversight process to evaluate the            O    Regional Administrator,    10/01/14
                    region’s success in implementing the strategy.                     Region 8




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0430                                                                                                                                      5
                                                                                      Appendix A

                  Agency Comments on Draft Report
                                        September 4, 2013

MEMORANDUM

SUBJECT: 	 Region 8 comments on OIG draft report titled "Implementation Plan with Cost
           Sharing Methodology Needed for Region 8 Senior Environmental Employee
           Work on Lead Risk Reduction"

FROM: 	        Shaun L. McGrath, Regional Administrator
               EPA Region 8

TO:    	       Richard Eyermann, Acting Assistant Inspector General
               Office of Audit

Thank you for the opportunity to review and comment on the draft "Implementation Plan with
Cost Sharing Methodology Needed for Region 8 Senior Environmental Employee Work on Lead
Risk Reduction." The report focuses on Region 8's Lead Renovation, Repair and Painting
Program, which two offices within the Region implement: the Office of Enforcement,
Compliance and Environmental Justice and the Office of Partnerships and Regulatory
Assistance. The report makes recommendations on a regional strategy to implement the RRP
Program and an oversight process to evaluate our success in implementing the strategy.

Region 8 agrees with the recommendations as outlined in the draft report. Earlier this year, we
initiated efforts which we are confident will address your recommendations. Staff and managers
from both offices are working toward the development of a joint work plan by the beginning of
FY2014 that will lead to more effective management of our resources. Such a work plan will
include developing a methodology for allocating funding to activities and SEEs,
planning/coordinating activities, and clarifying roles and responsibilities.

Once the Plan is final, ECEJ and OPRA will monitor Lead Program implementation efforts
semiannually through FY20 14 and report status to the Director of the Region 8, Grants, Audit
and Procurement Program. If joint Office work plan development and implementation is
successful through FY2014 further monitoring and reporting will no longer be required. Related
to your draft report, we are also submitting the following comments to clarify certain aspects.

ROLES
ECEJ and OPRA are jointly responsible for implementing the Lead Program in Region 8. Your
report indicates that "an absence of a methodology or agreement for sharing SEE funding has led
to confusion about respective roles and responsibilities." While the responsibilities and functions
of the two offices are stated in EPA Regional Orders (attached), we agree that the offices should
make sure there is clarity on the roles and responsibilities of each office, especially in light of
how the offices have addressed the RRP Program historically.


13-P-0430                                                                                         6
The most recent regional order for ECEJ's Lead Program was issued on February 25, 2009. It
states that ECEJ's Technical Enforcement Program is responsible for compliance monitoring,
inspections, and enforcement for the Toxic Substances Control Act (TSCA) lead-based paint
program. The most recent regional order for OPRA's Pollution Prevention and Toxics Program
was issued on October 5, 2005. It defines OPRA's role as responsible for the regulatory and non-
regulatory aspects of implementing TSCA including lead. The order states that this is
accomplished primarily through collaborative support, technical assistance and outreach, grants,
and capacity building.

When the Lead RRP rule was passed in 2008, it increased the workload of both offices. Because
OPRA's lead program was focused on required activities (certification, accreditation, regulatory
interpretations, responding to inquiries, state authorizations, etc.), and fielding phone calls from
potentially regulated entities, OPRA undertook minimal targeted compliance assistance,
outreach, and education to the regulated community. During this timeframe, ECEJ undertook its
own efforts to provide compliance assistance and outreach of the new Lead RRP rule. Due to the
Program's maturity, and the fact that the Office of Chemical Safety and Pollution Prevention
(OCSPP) assumed responsibility for processing certification of forms beginning in August 2012,
OPRA has more recently been focusing on targeted compliance assistance and outreach via
partnership and wholesale "marketing."

WORK PLANS
Your report indicated that OPRA did not have a FY2013 work plan. OPRA drafted a work plan
at the end ofFY2012 and shared it with ECEJ. Although that draft OPRAIECEJ work plan was
not finalized due to on-going discussions of work plan activities with ECEJ, the OPRA Lead
Program has been using that plan to guide its activities throughout FY2013.

FUNDING
Your report also stated that "OPRA receives the majority of the funding, allowing OPRA to fund
fulltime SEE grantees for a longer duration than ECEJ." It is true that OPRA receives more lead
funding from OCSPP than ECEJ from the Office of Enforcement and Compliance Assistance
(OECA). In FY2009 and FY2010, OPRA received over $550,000 from OCSPP to support the
new RRP Program creating a large surplus in the SSAI accounts for SEE charging. However,
OPRA has been transferring funding to ECEJ's lead program since FY2012. OPRA was able to
make these funds available to ECEJ primarily because OPRA had not been drawing its SEE
account down due to reduced SEE staffing in previous years. This reduced level of drawdown is
the main reason OPRA had a higher level of funding in its SEE account than ECEJ. (ECEJ had
3.1 SEEs while OPRA has 2 SEEs). Thus, ECEJ's drawdown rate was greater than OPRA's
drawdown rate.

Your report also indicates that funds had only been transferred from OPRA to ECEJ recently in
response to the OIG's inquiry. OPRA and ECEJ had initiated discussions in early FY2012 related
to use of funds by the two Programs. As indicated above, in mid-2012 funds were transferred to
ECEJ to support SEEs. Later, the two Programs continued to try to develop a methodology to
allocate funds. Your inquiry in early FY20 13 served to invigorate the process of developing a
sustainable framework to allocate funds and develop a more coordinated Region 8 Lead
program.



13-P-0430                                                                                          7
Again, we appreciate the opportunity to review and comment on this draft report. If you have any
questions or comments, please contact Callie Videtich, Deputy Assistant Regional Administrator
(OPRA) at 303-312-6434.

Attachments: EPA Order dated February 25, 2009 and EPA Order dated October 20, 2005




13-P-0430                                                                                     8
13-P-0430   9
13-P-0430   10
13-P-0430   11
13-P-0430   12
                                                                                  Appendix B

                                     Distribution
Office of the Administrator
Regional Administrator, Region 8
Assistant Administrator for Chemical Safety and Pollution Prevention
Assistant Administrator for Enforcement and Compliance Assurance
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Regional Administrator, Region 8
Deputy Assistant Administrator, Office of Chemical Safety and Pollution Prevention
Principal Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Assistant Regional Administrator, Region 8 Office of Enforcement, Compliance, and
       Environmental Justice
Assistant Regional Administrator, Region 8 Office of Partnerships and Regulatory Assistance
Deputy Assistant Regional Administrator, Region 8 Office of Enforcement and Compliance
       Assurance
Deputy Assistant Regional Administrator, Region 8 Office of Partnerships and Regulatory
       Assistance
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Region 8




13-P-0430                                                                                     13
